No. 19In the

Supreme Court of the United States
ROBINSON NURSING AND REHABILITATION
CENTER, LLC, D/B/A ROBINSON NURSING
AND REHABILITATION CENTER; CENTRAL
ARKANSAS NURSING CENTERS, INC.; NURSING
CONSULTANTS, INC.; AND MICHAEL MORTON,
Petitioners,
v.
ANDREW PHILLIPS, AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF DOROTHY
PHILLIPS, AND ON BEHALF OF THE WRONGFUL
DEATH BENEFICIARIES OF DOROTHY PHILLIPS,
AND ON BEHALF OF THEMSELVES AND ALL
OTHERS SIMILARLY SITUATED,
Respondents.
On Petition for a Writ of Certiorari to
the Supreme Court of A rkansas

PETITION FOR A WRIT OF CERTIORARI
William F. Northrip
Shook Hardy & Bacon, LLP
111 South Wacker Drive,
Suite 4700
Chicago, IL 60606
(312) 704-7700

Philip S. Goldberg
Counsel of Record
Shook Hardy & Bacon, LLP
1800 K Street, NW, Suite 1000
Washington, DC 20006
(202) 783-8400
pgoldberg@shb.com
Counsel for Petitioners

(For Continuation of Appearances See Inside Cover)
March 18, 2020
295301

Kynda A lmefty
Kirkman T. Dougherty
Jeffrey W. Hatfield
Stephanie I. Randall
Carol N. Ricketts
Hardin, Jesson & Terry, PLC
1401 West Capitol Avenue,
Suite 190
Little Rock, AR 72201-2939
(501) 850-0015

A. Bradley Bodamer
Shook Hardy & Bacon, LLP
2555 Grand Boulevard
Kansas City, MO 64108
(816) 474-6550

Counsel for Petitioners

i
QUESTIONS PRESENTED
The Federal Arbitration Act (FAA) provides that
arbitration agreements “shall be valid, irrevocable,
and enforceable, save upon such grounds as exist at
law or in equity for the revocation of any contract.” 9
U.S.C. § 2. That provision requires states to “place[]
arbitration contracts ‘on equal footing with all other
contracts.’” DIRECTV, Inc. v. Imburgia, 136 S. Ct.
463, 468 (2015) (quoting Buckeye Check Cashing, Inc.
v. Cardegna, 546 U.S. 440, 443 (2006)).
The Supreme Court of Arkansas here refused to
enforce hundreds of arbitration agreements. It
improperly found that “the arbitration agreement
was a separate contract from the admission
agreement, regardless of whether it was incorporated
into or operated as an addendum to the admissions
agreement.’” App., infra, 20a. Once separated, it
misapplied well-established rules of contract
interpretation to hold that the arbitration
agreements did not apply to the residents, while still
allowing the residents to pursue contract claims
based on the validity of the underlying contract.
The questions presented are:
1. Whether the FAA preempts a state-law
contract rule that singles out arbitration
agreements for invalidation because they were
signed by family members or other persons for
the benefit of the third-party residents now
bringing the claims.
2. Whether the FAA preempts a state-law
contract rule singling out arbitration
agreements by imposing a “mutuality of

ii
obligation” requirement to them that is not a
requirement for other contracts.
3. Whether the FAA preempts a state-law
contract rule that singles out arbitration
agreements due to lack of “mutuality of
assent” because they were not signed by the
party seeking to enforce it, when Arkansas law
allows other contracts to be valid and
enforceable without a signature based on other
factors including actual performance.

iii

PARTIES TO THE PROCEEDING
The parties to the proceeding below are listed on
the caption.
RULE 29.6 STATEMENT
The
owner
of
Robinson
Nursing
and
Rehabilitation Center, LLC; Central Arkansas
Nursing Center, Inc.; and Nursing Consultants, Inc.
is Michael Morton. No publicly traded company owns
10% or more of the stock of Robinson Nursing and
Rehabilitation Center, LLC; Central Arkansas
Nursing Center, Inc.; and Nursing Consultants, Inc.
RELATED PROCEEDING
•

Robinson Nursing and Rehabilitation Center,
LLC v. Phillips, No. CV-16-584, Supreme
Court of Arkansas, Judgment entered May 4,
2017.

•

Phillips v. Robinson Nursing and
Rehabilitation Center, LLC, No. 60CV-144568, Circuit Court of Pulaski County,
Arkansas Sixth Division, currently pending,
interlocutory order appealed from entered
October 19, 2017.

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDING ....................... iii
RULE 29.6 STATEMENT ...................................... iii
RELATED PROCEEDING ................................... iii
TABLE OF AUTHORITIES ................................... vi
PETITION FOR WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ............................................... 1
JURISDICTION ..................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 2
STATEMENT OF THE CASE ............................... 3
A. Factual Background ..................................... 6
B. Procedural History ....................................... 7
REASONS FOR GRANTING THE PETITION .... 9
A. The Court Should Grant The Petition
To Provide Needed Clarity That
Arbitration Agreements, As With
Other Contracts, Bind Third-Party
Beneficiaries ................................................ 12
B. The Court Should Grant This Petition
To Address The Growing Circuit Split
With Respect To Whether The FAA
Preempts State Law Imposing
Mutuality Of Obligation Only On
Arbitration Agreements .............................. 16

iii
C. The Supreme Court of Arkansas’
Holding On Mutuality of Assent
Underscores its Improper Hostile
Treatment of Arbitration Agreements ........ 21
CONCLUSION ....................................................... 23
APPENDIX A – Opinion of the Supreme
Court of Arkansas, Dated October 31,
2019 .................................................................. 1a
APPENDIX B – Order of the Circuit Court of
Pulaski County, Arkansas Sixth
Division, Dated October 19, 2017.................... 31a
APPENDIX C – Excerpt of Transcript of the
Circuit Court of Pulaski County,
Arkansas Sixth Division, Dated
September 22, 2017 ........................................ 33a
APPENDIX D – Denial of Rehearing of the
Arkansas Supreme Court, Dated
December 19, 2019........................................... 38a

iv
TABLE OF AUTHORITIES
Cases

Page

American Ins. Co. v. Cazort,
871 S.W.2d 575 (Ark. 1994) ................................. 13
Arthur Andersen LLP v. Carlisle,
556 U.S. 624 (2009) .............................................. 13
AT&T Mobility LLC v. Concepcion,
131 S. Ct. 1740 (2011) .................................... 3, 10
Barker v. Golf U.S.A., Inc.,
154 F.3d 788 (8th Cir. 1998) ................................ 17
Broadway Health & Rehab., LLC
v. Roberts, 524 S.W.3d 407
(Ark. Ct. App. 2017) ............................................. 13
Buckeye Check Cashing, Inc. v. Cardegna,
546 U.S. 440 (2006) ................................................i
Childs v. Adams,
909 S.W.2d 641 (Ark. 1995) ................................. 21
Circuit City Stores, Inc. v. Adams,
532 U.S. 105 (2001) .............................................. 23
Dickson v. Gospel for ASIA, Inc.,
902 F.3d 831 (8th Cir. 2018) ................................ 17
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463 (2015) .........................................i, 10

v
Diversicare Leasing Corp., v. Nowlin,
No. 11-CV-1037, 2011 WL 5827208
(W.D. Ark. Nov. 18, 2011) .................................... 19
Doctor’s Assocs., Inc. v. Casarotto,
116 S. Ct. 1652 (1996) ............................................ 5
Doctor’s Assocs., Inc., v. Distajo,
66 F.3d 438 (2d Cir. 1995) ............................. 18, 19
Enderlin v. XM Satellite Radio Holdings,
Inc., No. 4:06-CV-0032 GTE, 2008 WL
830262 (E.D. Ark. Mar. 25, 2008)........................ 18
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018) .................................... 10, 23
Higgins v. Ally Fin. Inc., No. 4:18-CV0417-SRB, 2018 WL. 5726213 (W.D.
Mo. Nov. 1, 2018) ................................................. 19
Hull v. Norcom, Inc.,
750 F.2d 1547 (11th Cir. 1985) ............................ 20
JP Morgan Chase & Co. v. Conegie,
492 F.3d 596 (5th Cir. 2007) ................................ 15
Kelly v. UHC Mgmt. Co., Inc.,
967 F. Supp. 1240 (N.D. Ala. 1997) ................18-19
Kindred Nursing Ctrs. Ltd. P'ship v.
Clark, 137 S. Ct. 1421 (2017)....................... passim
KPMG LLP v. Cocchi,
132 S. Ct. 23 (2011) ............................................... 3

vi
Marmet Health Care Ctr., Inc. v. Brown,
132 S. Ct. 1201 (2012) .......................................... 11
Mastrobuono v. Shearson Lehman
Hutton, Inc., 514 U.S. 52 (1995).......................... 3
Nitro-Lift Techs., LLC v. Sutter,
568 U.S. 17 (2012) ................................................ 11
Noohi v. Toll Bros., Inc.,
708 F.3d 599 (4th Cir. 2013) ...................... 4, 19, 20
Northport Health Servs. of Ark., LLC v.
Cmty. First Tr. Co., No. 2:12-CV02284, 2014 WL 217893
(W.D. Ark. Jan. 21, 2014) .................................... 15
Northport Health Servs. of Ark., LLC v.
Posey, 930 F.3d 1027 (8th Cir. 2019) ................... 15
Northport Health Servs. of Ark., LLC v.
Rutherford, No. 07-5184, 2009 WL
10673107 (W.D. Ark. March 17, 2009) ................ 15
Parker v. Carter,
120 S.W. 836 (Ark. 1909) ................................. 5, 21
Pine Hills Health & Rehab., LLC
v. Matthews, 431 S.W.3d 910
(Ark. 2014) ........................................................... 21
Plummer v. McSweeney,
941 F.3d 341 (8th Cir. 2019) ............................ 4, 17
Pope v. John Hancock Mut. Ins. Co.,
426 S.W.3d 557 (Ark. Ct. App. 2013) .................. 22

vii
Se. Stud & Components, Inc. v. Am. Eagle
Design Build Studios, LLC,
588 F.3d 963 (8th Cir. 2009) ................................ 17
Soto v. State Indus. Prods., Inc., 642 F.3d
67 (1st Cir. 2011) .................................................. 18

Constitutional Provisions and Statutes
U.S. Const., Art IV, cl. 2 ........................................ 2, 11
9 U.S.C. § 2 .............................................................. 2, 5
Other Authorities
RESTATEMENT (SECOND) OF
CONTRACTS § 79 (1979) .................................... 19

1
PETITION FOR WRIT OF CERTIORARI
Petitioners Robinson Nursing and Rehabilitation
Center, LLC; Central Arkansas Nursing Center, Inc.;
Nursing Consultants, Inc.; and Michael Morton
(collectively “Robinson”) respectfully petition for a
writ of certiorari to review the judgment of the
Supreme Court of Arkansas in this case.
OPINIONS BELOW
The opinion of the Supreme Court of Arkansas
(App., infra, 1a) is reported at 586 S.W.3d 624. The
order of the Supreme Court of Arkansas denying
rehearing (App., infra, 38a) is unreported.
The October 19, 2017 order of the Circuit Court of
Pulaski County, Arkansas denying the Motions to
Compel Arbitration (App., infra, 31a) is unreported.
JURISDICTION
The judgment of the Supreme Court of Arkansas
was entered on October 31, 2019. App., infra, 1a.
That court denied rehearing on December 19, 2019.
App., infra, 38a. This Court’s jurisdiction rests on 28
U.S.C. § 1257(a).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Supremacy Clause of the Constitution, art.
VI, cl. 2, provides in pertinent part:
This Constitution, and the Laws of the United
States which shall be made in Pursuance
thereof . . . shall be the supreme Law of the
Land; and the Judges in every State shall be
bound thereby, any Thing in the Constitution
or Laws of any State to the Contrary
notwithstanding.
Section 2 of the Federal Arbitration Act (“FAA”), 9
U.S.C. § 2, provides in pertinent part:
A written provision in . . . a contract evidencing a
transaction involving commerce to settle by
arbitration a controversy thereafter arising out of
such contract or transaction . . . or an agreement
in writing to submit to arbitration an existing
controversy arising out of such contract,
transaction, or refusal, shall be valid, irrevocable,
and enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.

3
STATEMENT OF THE CASE
The Supreme Court of Arkansas refused to
enforce hundreds of arbitration agreements. It
improperly found that each “arbitration agreement
was a separate contract from the admission
agreement, regardless of whether it was incorporated
into or operated as an addendum to the admissions
agreement.’” App., infra, 20a. Once segregated, it
misapplied well-established rules of Arkansas
contract law to hold that the arbitration agreements
did not apply to the residents, while still allowing the
residents to pursue contract claims based on the
validity of the underlying admissions contracts.
The state court, therefore, refused this Court’s
clear instructions to “place arbitration agreements
on an equal footing with other contracts, and enforce
them according to their terms.” AT&T Mobility LLC
v. Concepcion, 131 S. Ct. 1740, 1745 (2011)
(citations omitted). See also Kindred Nursing Ctrs.
Ltd. P'ship v. Clark, 137 S. Ct. 1421 (2017); KPMG
LLP v. Cocchi, 132 S. Ct. 23 (2011); Mastrobuono v.
Shearson Lehman Hutton, Inc., 514 U.S. 52 (1995).
Specifically, the court deployed three devices for
applying contract principles differently in the context
of arbitration agreements than in other contracts.
These devices are the subject of multiple state and
federal court rulings around the country as lower
courts seek to invalidate arbitration agreements.
First, the court singles out 271 arbitration
agreements for invalidation because they were
signed by family members or other persons for the
benefit of the third-party residents. This part of the

4
ruling applies the third-party beneficiary doctrine
differently by declaring that the residents are not
third-party
beneficiaries
of
the
arbitration
agreement, while allowing residents to gain the
benefits of and pursue claims as third parties to the
admission agreement. As detailed below, a split has
emerged in state and federal courts as some courts
have similarly sought to undermine arbitration
agreements signed for third-party beneficiaries.
Second, the court invalidated 216 total (109
additional) arbitration agreements by imposing a
“mutuality of obligation” requirement not applied to
other contracts. These agreements place an equal
obligation on the parties to arbitrate disputes
exceeding thirty thousand dollars ($30,000). The
court found this provision did not create a mutual
obligation because it erroneously believed that it
bound only claims the residents would bring, not
claims Petitioner would bring. Of greater concern, it
is not the law in Arkansas or elsewhere that all
contracts must be mutual or that all provisions or
types of claims arising under a contract must be
resolved in the same way. The U.S. Court of Appeals
for the Eighth Circuit last year held that applying
this doctrine to arbitration agreements is invalid
because it places them on unequal footing. See
Plummer v. McSweeney, 941 F.3d 341, 346 (8th Cir.
2019). As detailed below, there is also a Circuit split
on this issue, with the Fourth Circuit calling for this
Court’s review. See Noohi v. Toll Bros., Inc., 708 F.3d
599 (4th Cir. 2013).
Third, the court invalided 28 total (13 additional)
arbitration agreements claiming there was a lack of
“mutuality of assent” because these arbitration

5
agreements were signed only by the resident or
Responsible Party, and not Petitioner who was
seeking to enforce them. Again, the court is singling
out arbitration agreements for separate treatment,
finding that mutual assent mandates a signature as
the only means of demonstrating assent to an
arbitration agreement despite the fact that Arkansas
law has long held that assent to contracts can be
demonstrated by other methods, including actual
performance. See Parker v. Carter, 120 S.W. 836, 838
(Ark. 1909). Petitioner only entered into the
admission agreements and admitted the residents
into its facility because the arbitration agreements
were signed.
Each of these devices for invalidating arbitration
agreements demonstrates a stark refusal to adhere
to the Federal Arbitration Act (“FAA”), which
governs these claims, and this Court’s precedent that
state contract law must be applied equally to
arbitration clauses as to other contracts. The FAA
clearly provides that a written agreement to
arbitrate in a contract involving interstate commerce
“shall be valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of a contract.” 9 U.S.C. § 2. And, this
Court had repeatedly stated that the FAA
“preclude[s] States from singling out arbitration
provisions for suspect status,” as the Supreme Court
of Arkansas has done in this case. Doctor’s Assocs.,
Inc. v. Casarotto, 116 S. Ct. 1652, 1653 (1996).
This Court’s review is necessary to prevent state
and federal courts from continuing to create new
devices to prohibit the enforcement of valid
arbitration agreements. The devices here are

6
becoming common in lower courts and the Circuits
are asking for guidance. Given the Supreme Court of
Arkansas’ blatant disregard of this Court’s directive
that arbitration agreements be placed on equal
footing with other contracts, this Court may wish to
consider summary reversal or vacatur for
reconsideration.
A. Factual Background
Petitioner Robinson Nursing and Rehabilitation
Center, LLC is a long-term care facility in North
Little Rock, Arkansas. Petitioners Central Arkansas
Nursing Center, Inc. and Nursing Consultants, Inc.
provide support services to the facility. Petitioner
Michael Morton has an ownership interest in
Robinson Nursing and Rehabilitation Center, LLC;
Central Arkansas Nursing Center, Inc.; and Nursing
Consultants, Inc.
Respondent, Andrew Phillips, represents the
estate of Dorothy Phillips and is the class
representative for residents of Petitioner in a class
action pending in Pulaski County, Arkansas Circuit
Court.
Before residents could be admitted to the facility,
each class member or a “Responsible Party” for a
class member executed an arbitration agreement and
admission agreement. The arbitration agreement
was generally presented on separate paper so that
the signee understood that he or she was waiving the
right to trial by judge or jury and that arbitration
would be used to resolve disputes arising between
Petitioner, the resident and, when applicable, the
Responsible Party. All of the arbitration agreements
in this litigation, inter alia, state that “any and all

7
claims, disputes, and controversies arising out of, or
in connection with, or relating in any way to the
admission agreement, or any service or health
care . . . shall be resolved exclusively by binding
arbitration and not by a lawsuit or resort to court
process.”
The arbitration agreements further state that
they include all claims related to “violations of any
right granted to the Resident by law or by the
admission agreement, breach of contract, fraud or
misrepresentation, negligence, gross negligence,
malpractice or claims based on any departure from
accepted medical or health care or safety standards,
as well as any and all claims for equitable relief or
claims based on contract, tort, statute, fact, or
inducement.”
Finally, the arbitration agreements state the
services provided involve interstate commerce and
that arbitration “shall be governed by the Federal
Arbitration Act.” Thus, if the arbitration
agreements are determined to be valid, they would
govern the claims in this case.
B. Procedural History
On September 4, 2015, Respondent filed his First
Amended Class Action Complaint against Petitioners
alleging claims for violation of the Arkansas
Deceptive Trade Practices Act, breach of the
admission agreement, breach of the Provider
Agreement, Negligence, Civil Conspiracy and Unjust
Enrichment and seeking damages for physical and
economic injuries, as well as punitive damages.
App., infra, 2a. An Order Granting Respondent’s
Motion for Class Certification was entered on March

8
4, 2016 and was upheld by the Supreme Court of
Arkansas as to all claims except for negligence.
App., infra, 3a.
Following the Supreme Court of Arkansas’ class
certification decision, Petitioners filed four separate
Motions seeking to compel into arbitration the claims
of 544 Residents with valid and enforceable
arbitration agreements: a Motion with respect to
Residents who signed arbitration agreements; a
Motion with respect to Residents whose guardians
signed arbitration agreements; a Motion with respect
to Residents whose Attorneys-In-Fact signed
arbitration agreements; and a Motion with respect to
Residents whose Responsible Parties signed
arbitration agreement. App., infra, 3a.
A hearing was held on September 22, 2017, at
which the Circuit Court ruled that all four of
Petitioners’
Motions
to
Enforce
Arbitration
Agreements and to Compel Class Members with
Arbitration Agreements to Submit Their Claims to
Binding Arbitration were denied. App., infra, 37a.
The Court also denied Robinson’s request for findings
of fact and conclusions of law. App., infra, 4a. A
written Order was entered of Record on October 19,
2017 from which Petitioners appealed to the
Supreme Court of Arkansas. App., infra, 31a.
On October 31, 2019, in a majority opinion, the
Supreme Court of Arkansas affirmed in part and
reversed and remanded in part the Circuit Court’s
Order. The court held that 271 of the 544 arbitration
agreements at issue were invalid because they had
been signed by a “Responsible Party” who was not
the resident, a legal guardian of the resident, or a

9
person with power of attorney over the resident. It
held that 216 of the arbitration agreements were
invalid due to lack of mutuality because those
agreements only required arbitration of disputes
exceeding $30,000. Because of the overlap in these
groupings, this ruling invalidated 109 additional
arbitration agreements. The court held that 28 of the
agreements were invalid for lack of mutual assent
because they were not signed by Robinson. Due to
overlap, this holding invalidated 13 additional
agreements. Finally the court held that as many as
30 agreements were invalid because they were
incomplete, and that three residents’ agreements
were invalid for individual reasons. The remaining
arbitration agreements were enforceable.
The Supreme Court of Arkansas’ holding employs
multiple devices for invalidating arbitration
agreements in contradiction to how these state law
devices apply to other types of contracts.
REASONS FOR GRANTING THE PETITION
The Supreme Court of Arkansas’ ruling directly
conflicts with this Court’s clear instructions that if a
court enforces a contract, it must also enforce the
arbitration agreements that are part of or attendant
to those contracts. Here, the court refused to enforce
hundreds of arbitration agreements entered into by
nursing home residents or “Responsible Parties,”
who signed the agreements when admitting family
members or others into the nursing home. Yet, in
each situation, the court held the underlying
admission agreement was fully enforceable, giving
rise to contract, tort and statutory claims for the
residents.

10
In treating the arbitration agreement differently
from the underlying admission agreement, the court
asserted that “the arbitration agreement was a
separate contract from the admission agreement,
regardless of whether it was incorporated into or
operated as an addendum to the admissions
agreement.” This Court, though, has repeatedly
stated that arbitration agreements are on equal
footing with all other contracts and the FAA
preempts any such state-law rule discriminating
against arbitration agreements. See, e.g., DIRECTV,
Inc. v. Imburgia, 136 S. Ct. 463 (2015); Concepcion,
563 U.S. at 333. As the Court has observed, “we must
be alert to new devices and formulas” that state
Courts use for “declaring arbitration against public
policy.” Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612,
1623 (2018).
This Petition involves three such “devices” the
Court has not reviewed and that are the subject of
arbitration cases in multiple jurisdictions and, in
some instances, creating splits among the lower
courts. First, the court refused to recognize that a
resident could be the third-party beneficiary of the
Responsible Party who contracts with the nursing
center for the resident’s care. Second, it applied the
mutuality of obligations doctrine to block arbitration
agreements when that doctrine has not been applied
in the same way to other contracts. Third, it failed to
enforce several arbitration agreements that the
resident or Responsible Party signed as a
prerequisite for both parties signing the admission
agreement because the nursing center signed only
the admission agreement. As the dissenting justice
points out, the first two, and Petitioner believes all

11
three, violate “basic Arkansas contract principles”
and
“well-established
rules
of
contract
interpretation.”
When state courts distort its traditional contracts
law and treat arbitration agreements differently
from other contracts, the Court has not hesitated to
remind them that they are bound by the FAA and
this Court’s precedents for upholding arbitration
agreements. See, e.g., Marmet Health Care Ctr., Inc.
v. Brown, 132 S. Ct. 1201, 1202 (2012) (“When this
Court has fulfilled its duty to interpret federal law, a
state court may not contradict or fail to implement
the rule so established.” (citing U.S. Const., Art IV,
cl. 2.)). Because state supreme court decisions often
represent the final say on the enforcement of
arbitration agreements, intervention is “a matter of
great importance” so that “state supreme courts
adhere to a correct interpretation of the [FAA].”
Nitro-Lift Techs., LLC v. Sutter, 568 U.S. 17, 17-18
(2012).
As this case demonstrates, combating devices
states and some federal courts create to defeat
arbitration agreements has sometimes resembled a
game of Whack-a-Mole. The Court should grant the
Petition to “whack” these three new devices for
striking down arbitration agreements, as they are
appearing in similar cases around the country, and
issue strong language that courts should adhere to
the Court’s consistent jurisprudence that arbitration
agreements are not different from underlying
contracts. It is not proper for people seeking to
enforce contracts to be summarily excused from
abiding by the arbitration provisions in them.

12
A. The Court Should Grant The Petition To
Provide Needed Clarity That Arbitration
Agreements, As With Other Contracts,
Bind Third-Party Beneficiaries.
The third-party beneficiary doctrine at issue in
this Petition addresses an issue left uncovered by
Kindred Nursing, potentially opening a giant
loophole on the enforceability of arbitration
agreements in nursing homes and other health care
facilities where a family member or other person
signs the contracts upon which the resident or
patient is admitted. In Kindred Nursing, the Court
required the enforcement of an arbitration
agreement in a nursing home when a family member
or other person signs with the power-of-attorney for
the resident. See 137 S. Ct. at 1425 (“Because that
rule singles out arbitration agreements for
disfavored treatment, we hold that it violates the
FAA.”). In that situation, the person with the power
of attorney is signing on the resident’s behalf.
There are many situations where a family
member contracts with the health care facility to
provide services to a resident, but the family member
does not have power of attorney. In some of those
situations, as here, the family member signs the
contract, not as an agent for the resident, but in his
or her own capacity. The sole purpose of the contract
is to provide services to the third-party resident, as
the contract outlines the rights and obligations of the
nursing home, family member signing the contract,
and resident. Indeed, the residents have gained the
benefits of these contracts by receiving care and are
bringing claims based on these contracts.

13
As the Court has explained, the question of
whether arbitration agreements included in (or
signed as a prerequisite to) these contracts can be
“enforced by or against nonparties”—here the
residents—is governed by “’traditional principles’ of
state law,” including “third-party beneficiary
theories.” Arthur Andersen LLP v. Carlisle, 556 U.S.
624, 630 (2009). In Arkansas, a contract is
enforceable against a non-signatory third-party
beneficiary if two elements are established: (1) an
underlying valid agreement between the parties, and
(2) a clear intention that the contract benefits a third
party. See Broadway Health & Rehab., LLC v.
Roberts, 524 S.W.3d 407, 412 (Ark. Ct. App. 2017).
Because the third-party beneficiary receives the
contract’s benefits, he or she is also bound by its
terms, and that includes any arbitration agreement.
American Ins. Co. v. Cazort, 871 S.W.2d 575, 579-80
(Ark. 1994) (explaining that a non-signatory cannot
claim benefits of a contract but avoid being bound by
an arbitration provision contained therein).
Although there are slight variations in some of
the contracts, each family member in this subset of
claims signed the arbitration and admission
agreements in his or her name as the “Responsible
Party,” not as a power of attorney or serving in any
other representative capacity. App. infra, 7a. The
Agreements define “Responsible Party” as the person
“who agrees to assist the [nursing home] in providing
for [the resident’s] health, care and maintenance.”
App., infra, 10a. They also state that the Responsible
Party intends to be bound by the agreement for the
purpose of assisting the nursing home in caring for
the third-party resident. App., infra, 26a.

14
As discussed above, to excuse third-party
beneficiaries from the arbitration provisions, the
court’s ruling directly violated Kindred Nursing by
segregating the arbitration agreement from the
admission agreement, despite the fact that the
admission agreement incorporates by reference the
arbitration agreement. The arbitration agreement is
on separate paper and requires a separate signature
to assure it is properly highlighted and considered by
the signee—not to be given different treatment from
the admission agreement. Once separated, the court
found the arbitration agreements “do not place any
specific obligations or personal liability upon the
‘Responsible Party’” so there is no valid agreement.
App., infra, 13a-14a. It also sought to minimize
differences between contracts signed by Responsible
Parties
and
those
by
resident
or
legal
representatives: “Other than the change in
nomenclature, there is no real distinction.” App.,
infra, 13a.
As the dissent explains, “[t]he conclusion that the
residents were third-party beneficiaries is easily
reached” under traditional Arkansas contract law
and the majority’s ruling to deny third-party
beneficiary status to the residents contravenes with
“well-established rules of contract interpretation.”
App., infra, 27a-28a. “[B]y voluntarily signing as a
‘responsible party,’ the individual intends to be
bound by the agreement for the purpose of assisting
the nursing home in caring for the resident. To hold
otherwise would render the language defining a
‘responsible party’ meaningless, which is contrary to
Arkansas contract law.” App., infra, 26a. Also,
equating “responsible party” with a legal guardian or

15
someone with power of attorney contradicts the
written contract. App., infra, 28a.
Importantly for the Court’s consideration of the
Petition, a split has emerged among Federal Circuits
as to whether the third-party beneficiary doctrine
binds residents in these situations. Compare JP
Morgan Chase & Co. v. Conegie, 492 F.3d 596 (5th
Cir. 2007) (relative signed arbitration and admission
agreement admitting patient to nursing home and
patient was deemed a third-party beneficiary for
purposes of enforcing the arbitration agreement)
with Northport Health Servs. of Ark., LLC v. Posey,
930 F.3d 1027 (8th Cir. 2019) (relative signed
arbitration and admission agreement admitting
patient to nursing home and patient was not deemed
a third-party beneficiary for purposes of enforcing
the arbitration agreement).
Before the recent Eighth Circuit ruling, federal
District Courts had applied Arkansas contract law to
uphold similar provisions in other third-party
beneficiary agreements. See, e.g., Northport Health
Servs. of Ark., LLC v. Cmty. First Tr. Co., No. 2:12CV-02284, 2014 WL 217893 (W.D. Ark. Jan. 21,
2014); Northport Health Servs. of Ark., LLC v.
Rutherford, No. 07-5184, 2009 WL 10673107 (W.D.
Ark. March 17, 2009). The Arkansas Supreme Court
did not explain why these cases wrongly applied the
FAA to the state claims; it summarily dismissed
them in a footnote. It also did not mention Kindred
Nursing or any other of the Court’s rulings enforcing
arbitration agreements in explaining how its ruling
fit within the Court’s jurisprudence—all reasons why
this case is screaming for this Court’s attention.

16
B. The Court Should Grant This Petition To
Address The Growing Circuit Split With
Respect To Whether The FAA Preempts
State Law Imposing Mutuality Of
Obligation
Only
On
Arbitration
Agreements.
There is also a split among the Federal Circuits
on the second device the Supreme Court of Arkansas
used to determine that more than two hundred of the
arbitration agreements in question were invalid: the
lack of “mutuality of obligation.” This doctrine
suggests that the contract must impose the
requirements of arbitration on both parties. See App.,
infra, 16a. As discussed below, many courts have
analyzed this theory, including the Eighth Circuit
applying Arkansas law, and have held that it cannot
be invoked to invalidate arbitration agreements.
Here, the court’s ruling significantly stretches
this mutuality of obligation doctrine to the extent it
can even be applied to bar arbitration agreements.
The terms of the arbitration agreement at issue in
this subset of claims apply equally to all parties: any
claim in excess of $30,000 must be arbitrated in an
effort to avoid the high costs of large litigation.
Smaller claims can be litigated if the party seeking to
enforce the contract so chooses. The court theorized,
without foundation, that this limitation would push
the type of claims residents might bring against
Petitioner into arbitration, while allowing Petitioner
to use the court system to pursue smaller claims, like
fee disputes, against residents. App., infra, 19a. As
the dissent explains, this was mere “speculation
about what types of hypothetical claims each party

17
may potentially have against each other and the
respective value of those claims.” App., infra, 30a.
One week before the court’s decision here, the
Eighth Circuit detailed the reasons Arkansas’ entire
mutuality of obligation doctrine for arbitration
agreements violates the FAA. See Plummer, 941 F.3d
at 346. In that case, the Eastern District of Arkansas
expressed reservations that the arbitration clause “in
effect allowed only [the defendant] to obtain redress
of claims” in the courts, while plaintiffs had to
arbitrate their claims. Id. The Eighth Circuit
explained that this entire theory relies on “a
resistant strain of Arkansas case law that holds that
a party’s promise to arbitrate disputes is not
enforceable unless the other party promises to
arbitrate as well.” Id.
The Eighth Circuit explained that this doctrine
“contravene[s] the FAA’s directive that courts place
arbitration contracts on an equal footing with other
contracts.” Id. (citing Kindred Nursing, 137 S. Ct. at
1424). “Arkansas law, for good reason, does not
require on ‘mutuality of obligation’ grounds or any
other, that a party's promise, say, to build a house is
not enforceable unless the other party also promises
to do so.” Id. at 347 n.1. It noted that it had
“intimated” that this “mutuality of obligation”
requirement violates the FAA on several other
occasions. Id. (citing Dickson v. Gospel for ASIA, Inc.,
902 F.3d 831, 835 (8th Cir. 2018); Se. Stud &
Components, Inc. v. Am. Eagle Design Build Studios,
LLC, 588 F.3d 963, 966–68 (8th Cir. 2009); Barker v.
Golf U.S.A., Inc., 154 F.3d 788, 792 (8th Cir. 1998).
Additionally, it noted more than a decade ago that an
Eastern District of Arkansas Court had held that

18
Arkansas’ mutuality of obligation requirement for
arbitration agreements violates the FAA—“we think
correctly.” Id. (citing Enderlin v. XM Satellite Radio
Holdings, Inc., No. 4:06-CV-0032 GTE, 2008 WL
830262, at *10 (E.D. Ark. Mar. 25, 2008)).
Yet, the Supreme Court of Arkansas ignored
those rulings. Thus, this conflict between the Eighth
Circuit and the Supreme Court of Arkansas means
that the enforceability of Arkansas arbitration
agreements will vary based on whether a claim is
filed in state or federal court.
The Eighth Circuit also does not stand alone. The
First Circuit has held that the FAA precludes states
from
imposing
“mutuality
of
obligation”
requirements on arbitration agreements. See Soto v.
State Indus. Prods., Inc., 642 F.3d 67, 76 (1st Cir.
2011) (“[T]he FAA preempts Puerto Rico from
imposing [a mutuality of obligation] requirement
applicable only to arbitration provisions.”). The
Second Circuit also has explained that “mutuality of
obligation”
requirements
do
not
invalidate
arbitration agreements when there is consideration
for the underlying contract, and cautioned that a
contrary
holding
“that
required
separate
consideration for arbitration clauses might risk
running afoul of” the strong federal policy favoring
arbitration. See Doctor’s Assocs., Inc., v. Distajo, 66
F.3d 438, 453 (2d Cir. 1995).
Various District Courts are in agreement and
have held that state law “mutuality of obligation”
requirements for arbitration agreements are
preempted by the FAA. See, e.g., Kelly v. UHC Mgmt.
Co., Inc., 967 F. Supp. 1240, 1260 (N.D. Ala. 1997)

19
(“The Alabama Supreme Court has added a
requirement of ‘mutuality of obligation’ to arbitration
agreements that does not exist for all other contracts
formed under Alabama law. This requirement,
therefore, does not comport with the commands of § 2
and is not to be considered in determining the
validity of the present agreements to arbitrate.”);
Higgins v. Ally Fin. Inc., No. 4:18-CV-0417-SRB,
2018 WL. 5726213, at *3 (W.D. Mo. Nov. 1, 2018)
(“Any Kansas mutuality-of-obligation requirement
applying specifically to arbitration provisions would
be preempted by the FAA.”); see also Diversicare
Leasing Corp., v. Nowlin, No. 11-CV-1037, 2011 WL
5827208, at *4 (W.D. Ark. Nov. 18, 2011) (applying
Arkansas law and holding that mutuality of
obligation did not invalidate an arbitration
agreement with a fifteen thousand dollar ($15,000)
threshold).
These decisions reflect that “‘mutuality of
obligation’ has been largely rejected as a general
principle in contract law” and, accordingly, requiring
that arbitration agreements satisfy “mutuality of
obligation” would violate the FAA. See, e.g. Distajo,
66 F.3d at 451 (citing RESTATEMENT (SECOND)
OF CONTRACTS § 79 (1979) (If the requirement of
consideration is met, there is no additional
requirement of . . . ‘mutuality of obligation.’”)).
Further, there is now a clear Circuit split, as two
Circuit Courts have reached the opposite conclusion;
they have held state law “mutuality of obligation”
requirements for arbitration agreements are not
preempted by the FAA. In Noohi v. Toll Bros., Inc.,
the Fourth Circuit declined to hold that a Maryland
law requiring that “an arbitration provision must

20
contain a mutually coextensive exchange of promises
to arbitrate, regardless whether the contract as a
whole is supported by adequate consideration” was
preempted by the FAA. 708 F.3d at 613. In Hull v.
Norcom, Inc., the Eleventh Circuit found that a state
law requirement that “the consideration exchanged
for one party’s promise to arbitrate must be the other
party’s promise to arbitrate at least some specified
class of claims” did not contravene the FAA or its
underlying policy. 750 F.2d 1547, 1550-51 (11th Cir.
1985).
Importantly, the Fourth Circuit called on this
Court to provide needed guidance on this issue. It
stated that it understood “the gravity of the issue
presented” but declined to “overturn a decision of the
high court of one of the 50 states” in the absence of a
decision from the Court. Noohi, 708 F.3d at 613 (“The
Supreme Court may eventually hold that the FAA
preempts such a rule, but doing so now would
require an extension of existing precedent—and
abrogation of our own.”).
This case presents a perfect opportunity for this
Court to answer the Fourth Circuit’s call and address
this growing split with respect to whether the FAA
permits states to impose mutuality of obligation
requirements on arbitration agreements when they
are not required for other types of contracts. Under
the Supreme Court of Arkansas’ approach,
arbitration agreements will be invalidated based on
nothing more than the whims of a hostile court and
its ability to imagine hypothetical situations where
an agreement might not be mutual. Only this Court
can eradicate this “resistant strain” and restore

21
arbitration agreements to equal footing with other
contracts.
C. The Supreme Court of Arkansas’ Holding
On Mutuality of Assent Underscores its
Improper
Hostile
Treatment
of
Arbitration Agreements.
Finally, the Supreme Court of Arkansas’ hostility
to arbitration agreements also manifested itself in its
conclusion that 28 of the arbitration agreements
were invalid due to a lack of mutuality of assent
solely because Petitioner had not signed them. The
court asserted that “[i]t is a matter of basic contract
law that, without its signature, Robinson is unable to
demonstrate such mutual assent.” This conclusion
ignores the numerous ways Arkansas allows mutual
assent to be proven for other contracts. So, yet again,
the court is applying different law to the arbitration
agreement than to other contracts.
To be sure, Arkansas law has never been that the
only way for a contract to be valid and enforceable is
for it to be signed. See Childs v. Adams, 909 S.W.2d
641, 645 (Ark. 1995) (“[M]anifestation of assent to a
contract may be made wholly by spoken words or by
conduct.”). In fact, the Supreme Court of Arkansas
has explained that “a written contract . . . is valid if
one of the parties signs it and the other acquiesces
therein.” Pine Hills Health & Rehab., LLC v.
Matthews, 431 S.W.3d 910, 915 (Ark. 2014) (citing
Parker, 120 S.W. at 838). This standard is clearly
met here. Robinson manifested its assent to the
arbitration agreements, which were explicitly and
unequivocally incorporated by reference into the
admission agreements.

22
Moreover, contrary to the court’s holding, the
admission agreement and arbitration agreement are
incorporated documents that must be read together.
See Pope v. John Hancock Mut. Ins. Co., 426 S.W.3d
557, 560 (Ark. Ct. App. 2013) (“In order to
incorporate a separate document by reference into a
contract, the reference must be clear and
unequivocal, and the terms of the incorporated
document must be known or easily available to the
contracting parties.”). It is undisputed that the
residents in question were admitted to Robinson and
received the services contemplated by the admission
agreements. The arbitration agreements were
prepared by Petitioner, presented to the resident or
his or her representative and maintained in
Petitioner’s files with the contemporaneously
executed
admission
agreements.
These
circumstances clearly demonstrate Petitioner’s
assent to the arbitration agreements that they seek
to enforce. The Supreme Court of Arkansas’ refusal
to recognize manifestations of assent, besides a
signature, where it hasn’t done so elsewhere
contradicts the FAA and this Court’s precedents.
The Supreme Court of Arkansas’ hostility to
arbitration agreements is apparent and in blatant
disregard of this Court’s precedent and the FAA’s
mandate. Although presented as the application of
contract principles, the court is applying these
principles in unique ways to deny the validity and
enforcement of arbitration agreements that the
parties entered into willingly and gained their
benefits. The Supreme Court has recognized that
there are “real benefits to the enforcement of
arbitration provisions,” including “allow[ing] parties

23
to avoid the costs of litigation.” Circuit City Stores,
Inc. v. Adams, 532 U.S. 105, 122-23 (2001).
This Petition invokes precisely the types of
surreptitious “device[s]” this Court cautioned against
in Epic Sys. Corp., 138 S. Ct. at 1623. The Court’s
intervention is warranted because these issues arise
with great frequency, there is a conflict among
Circuits on these issues—and a conflict between
state and federal courts in Arkansas on the
mutuality issue, which could lead to forum
shopping—and this Court can make clear that lower
courts may not look for excuses to invalidate as many
arbitration agreements as possible.
CONCLUSION
Petitioners respectfully request that this Petition
for a Writ of Certiorari should be granted. This Court
may wish to consider summary reversal or vacatur
for reconsideration.
Respectfully submitted,
Philip S. Goldberg
Counsel of Record
SHOOK, HARDY & BACON L.L.P.
1800 K Street, N.W., Suite 1000
Washington, D.C. 20006
pgoldberg@shb.com
(202) 783-8400
Counsel for Petitioners

24

William F. Northrip
SHOOK, HARDY & BACON L.L.P.
111 S. Wacker Drive, 51st Floor
Chicago, IL 60606
(312) 704-7700
A. Bradley Bodamer
SHOOK HARDY & BACON, LLP
2555 Grand Blvd.
Kansas City, MO 64108
(816) 474-6550
Kynda Almefty
Kirkman T. Dougherty
Jeffrey W. Hatfield
Stephanie I. Randall
Carol N. Ricketts
HARDIN, JESSON & TERRY, PLC
1401 W. Capitol Avenue, Suite
190
Little Rock, AR 72201-2939
(501) 850-0015
Counsel for Petitioners
March 18, 2020

APPENDIX

1a
Appendix of
A the SUPREME
Appendix A — opinion
COURT OF ARKANSAS, DATED OCTOBER 31, 2019
SUPREME COURT OF ARKANSAS
No. CV-18-45
ROBINSON NURSING AND REHABILITATION
CENTER, LLC, D/B/A ROBINSON NURSING
AND REHABILITATION CENTER; CENTRAL
ARKANSAS NURSING CENTERS, INC.; NURSING
CONSULTANTS, INC.; AND MICHAEL MORTON,
Appellants,
v.
ANDREW PHILLIPS, AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF
DOROTHY PHILLIPS, AND ON BEHALF OF
THE WRONGFUL DEATH BENEFICIARIES
OF DOROTHY PHILLIPS; AND ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY
SITUATED,
Appellees.
October 31, 2019, Opinion Delivered
APPEAL FROM THE PULASKI
COUNTY CIRCUIT COURT.
NO. 60CV-14-4568

2a
Appendix A
HONORABLE TIMOTHY DAVIS FOX, JUDGE.
AFFIRMED IN PART; REVERSED AND
REMANDED IN PART.
COURTNEY RAE HUDSON, Associate Justice
In this interlocutory appeal, appellants Robinson
Nursing and Rehabilitation Center, LLC, d/b/a Robinson
Nursing and Rehabilitation Center; Central Arkansas
Nursing Centers, Inc.; Nursing Consultants, Inc.; and
Michael Morton (collectively “Robinson”) appeal from the
Pulaski County Circuit Court’s order denying motions
to compel arbitration of a class-action complaint filed by
appellees Andrew Phillips, as personal representative
of the estate of Dorothy Phillips, and others (collectively
“Phillips”). For reversal, Robinson argues that the
circuit court erred in refusing to enforce valid arbitration
agreements. We affirm in part and reverse and remand
in part.
On September 4, 2015, Phillips filed a first amended
class-action complaint against Robinson alleging claims
that Robinson had breached its admissions and provider
agreements, violated the Arkansas Deceptive Trade
Practices Act (“ADTPA”), committed negligence and
civil conspiracy, and been unjustly enriched. He sought
compensatory, economic, and punitive damages, as well
as attorney’s fees, interest, and costs. Phillips filed an
amended motion for class certification on September 10,
2015, requesting that a class be certified of all residents
and estates of residents who resided at Robinson from
June 11, 2010, to the present.

3a
Appendix A
On September 24, 2015, Robinson filed an answer
to the complaint in which it denied the allegations and
asserted, among other defenses, that the claims of putative
class members were barred from being litigated in a court
of law by virtue of arbitration agreements. Robinson also
filed a response to the motion for class certification.
The circuit court entered an order granting class
certification on March 4, 2016, and Robinson appealed
to this court. We affirmed the grant of class certification
with respect to Phillips’s breach-of-contract, ADTPA, and
unjust-enrichment claims, but reversed with respect to
the negligence claim. Robinson Nursing & Rehab. Ctr.,
LLC v. Phillips, 2017 Ark. 162, 519 S.W.3d 291.
On September 1, 2017, Robinson filed a motion to
compel arbitration with regard to nine class members/
residents with arbitration agreements that had been
signed by the residents’ legal guardians. This motion was
later supplemented to add one additional class member.
Robinson also filed separate motions to compel arbitration
as to 105 residents who had signed the agreements on their
own behalf and as to 158 residents whose agreements had
been signed by a person with power of attorney over that
resident. On September 5, 2017, Robinson filed a fourth
motion to compel arbitration as to 271 residents who had
“responsible parties” execute arbitration agreements
on their behalf. The individual arbitration agreements,
admission agreements, and any other accompanying
documents were attached to the motions to compel.1
1. Because there are several different versions of the
admissions and arbitration agreements signed by the residents,

4a
Appendix A
On September 7, 2017, Phillips filed an unopposed
motion for extension of time to respond to Robinson’s
motions to compel arbitration. The motion was granted,
and the circuit court extended the time for response until
October 17, 2017. However, before Phillips filed a response,
the circuit court summarily ruled at a September 22,
2017 hearing that all four of Robinson’s motions to
compel arbitration were denied. Neither party presented
argument in support of, or in opposition to, the motions
or objected to the timing of the circuit court’s ruling at
the hearing. The court also denied Robinson’s request for
findings of fact and conclusions of law. A written order
generally denying the motions to compel was entered on
October 19, 2017, and Robinson filed a timely notice of
appeal from the order.
On appeal, Robinson argues that the circuit court
erred in denying its motions to compel arbitration.
Robinson contends that the 544 arbitration agreements at
issue were valid and enforceable, that the claims asserted
by Phillips were within the scope of the agreements, and
that the circuit court’s ruling was contrary to this court’s
strong policy in favor of arbitration.
An order denying a motion to compel arbitration is
immediately appealable pursuant to Arkansas Rule of
Appellate Procedure—Civil 2(a)(12) (2018). We review a
circuit court’s denial of a motion to compel arbitration de
we do not preliminarily set forth all of the relevant language, and
we instead refer to the applicable provisions during our discussion
of the issues presented on appeal.

5a
Appendix A
novo on the record. Courtyard Gardens Health & Rehab.,
LLC v. Arnold, 2016 Ark. 62, 485 S.W.3d 669. When a
circuit court denies a motion to compel arbitration without
expressly stating the basis for its ruling, as it did here,
that ruling encompasses the issues presented to the circuit
court by the briefs and arguments of the parties. Reg’l
Care of Jacksonville, LLC v. Henry, 2014 Ark. 361, 444
S.W.3d 356; Asset Acceptance, LLC v. Newby, 2014 Ark.
280, 437 S.W.3d 119.
The parties do not dispute that the Federal Arbitration
Act (“FAA”), 9 U.S.C. §§ 1-16, governs the agreements at
issue. The FAA establishes a national policy favoring
arbitration when the parties contract for that mode of
dispute resolution. Henry, supra. Likewise, in Arkansas,
arbitration is strongly favored as a matter of public policy
and is looked upon with approval as a less expensive and
more expeditious means of settling litigation and relieving
docket congestion. Arnold, supra; Henry, supra.
Despite an arbitration provision being subject to the
FAA, we look to state contract law to decide whether the
parties’ agreement to arbitrate is valid. Henry, supra.
The same rules of construction and interpretation apply
to arbitration agreements as apply to agreements in
general. Newby, supra. In deciding whether to grant a
motion to compel arbitration, two threshold questions must
be answered: (1) Is there a valid agreement to arbitrate
between the parties? and (2) If such an agreement exists,
does the dispute fall within its scope? Id.

6a
Appendix A
Phillips preliminarily argues in his response brief
that the motions to compel arbitration were barred by the
law-of-the-case doctrine and that Robinson also waived
its right to arbitrate. Phillips claims that Robinson’s
failure to attempt to exclude residents who were subject to
arbitration agreements from the proposed class in its prior
appeal from class certification now bars it from seeking to
compel those class members to participate in arbitration.
He further contends that Robinson waived its right to
arbitrate by waiting for more than two years to request
it. As Robinson asserts, however, these arguments are not
properly preserved for our review. Phillips did not file a
response to the motions to compel, nor did he raise these
issues to the circuit court at the hearing. Further, because
the circuit court’s general denial constituted a ruling only
on the arguments that were raised by the parties, Phillips
has failed to secure a ruling on either the law-of-the-case
doctrine or waiver. 2 Newby, supra. We therefore decline
to address them and instead discuss only the issues raised
by Robinson in its motions to compel—namely, whether
there was a valid agreement to arbitrate between the
parties and whether the claims fell within the scope of
the agreements.

2. While Phillips contends that the circuit court “touched on”
these issues at the hearing, it is apparent from the circuit court’s
comments that it was only noting its concern about successive appeals
in a case such as this one that involves both class-action certification
and the potential arbitration of certain class members’ claims.

7a
Appendix A
I.

Whether There Is a Valid Agreement to Arbitrate
Between the Parties

We must first determine the threshold inquiry of
“whether a valid agreement to arbitrate exists; that is,
whether there has been mutual agreement, with notice
as to the terms and subsequent assent.” Henry, 2014
Ark. 361, at 6, 444 S.W.3d at 360. We have held that, as
with other types of contracts, the essential elements for
an enforceable arbitration agreement are (1) competent
parties, (2) subject matter, (3) legal consideration, (4)
mutual agreement, and (5) mutual obligations. Id. at 6-7,
444 S.W.3d at 360. As the proponent of the arbitration
agreements, Robinson has the burden of proving these
essential elements. DaimlerChrysler Corp. v. Smelser,
375 Ark. 216, 289 S.W.3d 466 (2008).
A.

Validity of the 271 Arbitration Agreements
Executed by “Responsible Parties”

Phillips first challenges the validity of Robinson’s
motion to compel with respect to the 271 arbitration
agreements that were not signed by the resident, a
legal guardian of the resident, or a person with a power
of attorney over the resident. These agreements were
instead signed by the resident’s “responsible party”
or “legal representative.” Phillips contends that these
agreements are invalid because the signors did not have
legal authority to act on the residents’ behalf or to bind
the residents to arbitration.

8a
Appendix A
When a third party signs an arbitration agreement
on behalf of another, we must determine whether the
third party was clothed with the authority to bind the
other person to arbitration. Courtyard Gardens Health
& Rehab., LLC v. Sheffield, 2016 Ark. 235, 495 S.W.3d 69.
The burden of proving an agency relationship lies with
the party asserting its existence. Id. Not only must the
agent agree to act on the principal’s behalf and subject
to his control, but the principal must also indicate that
the agent is to act for him. Courtyard Gardens Health &
Rehab., LLC v. Quarles, 2013 Ark. 228, 428 S.W.3d 437.
Robinson admits that the “responsible parties” at
issue here did not have legal authority to act as agents
on the residents’ behalf, as there were no documents
presented by these persons demonstrating such authority.
Instead, Robinson argues that the residents were bound
by the arbitration agreements by virtue of being thirdparty beneficiaries. Two elements are necessary in order
for the third-party-beneficiary doctrine to apply under
Arkansas law: (1) there must be an underlying valid
agreement between two parties, and (2) there must be
evidence of a clear intention to benefit a third party. Perry
v. Baptist Health, 358 Ark. 238, 189 S.W.3d 54 (2004);
Hickory Heights Health & Rehab, LLC v. Cook, 2018 Ark.
App. 409, 557 S.W.3d 286; Broadway Health & Rehab, LLC
v. Roberts, 2017 Ark. App. 284, 524 S.W.3d 407.
The critical question in determining whether the
third-party-beneficiary doctrine applies to the 271
arbitration agreements at issue is whether the “responsible
parties” were signing in their individual capacity or in a

9a
Appendix A
representative capacity. Cook, supra. Robinson asserts
that these persons were acting in their individual capacity
such that it created a valid and enforceable contract
between those persons and Robinson, with a clear
intention to benefit the nursing-home residents. Phillips,
however, argues that these persons signed the agreements
only on behalf of, and as representatives of, the residents.
There are three different versions of the arbitration
agreements presented by Robinson, with each version
using slightly different terms to identify the parties to
the agreement. Two of the versions indicate that the
arbitration agreement is entered into between “the
Facility” and the “Resident and/or Legal Representative,”
with the resident and legal representative collectively
referred to as the “Resident.” The signature lines
similarly provide for a signature by the “Resident and/or
Legal Representative” and the facility’s representative.
These arbitration agreements also contain a box that may
be checked if a copy of guardianship papers, a durable
power of attorney, or other documentation has been
provided to the facility, although as noted earlier, no such
documentation was provided for these 271 residents. The
associated admissions agreements refer either to the
“resident or resident responsible party” or to the “resident
or resident representative/agent,” with “agent” defined
as “a person who manages, uses, controls, or otherwise
has legal access to Resident’s income or resources that
legally may be used to pay Resident’s share of cost or other
charges not paid by the Arkansas Medicaid Program.”
The signature lines have a space for the resident and for
either the “Resident Responsible Party” or the “Resident

10a
Appendix A
Representative/Agent” to sign, depending on the version
of the admissions agreement, along with the facility
representative.
The third version of the arbitration agreement
states that it is between “the Facility,” “the Resident,”
and “the Resident’s Responsible Party.” “Responsible
Party” is defined as “your legal guardian, if one has been
appointed, your attorney-in-fact, if you have executed
a power of attorney, or some other individual or family
member who agrees to assist the Facility in providing
for your health, care and maintenance.” The agreement
has signature lines for the facility representative, the
“Resident,” and the “Responsible Party,” and it also has
a line to indicate the “Responsible Party’s Relationship
to Resident.” These agreements also have the box to be
checked if documentation has been provided to Robinson
demonstrating a guardianship or power of attorney
over the resident. The admissions agreement associated
with this version of the arbitration agreement indicates
that the “Resident,” the “Facility,” and the resident’s
“Responsible Party” agree to the terms and conditions
contained therein. The definition of “Responsible Party”
is consistent with that in the arbitration agreement, with
additional language stating this “includes a person who
manages, uses, controls, or otherwise has legal access to
Resident’s income or resources that legally may be used to
pay Resident’s share of cost or other charges not paid by
the Arkansas Medicaid Program or any other source.” The
signature lines of these admissions agreements include
spaces for the “Resident,” the “Resident’s Responsible
Party,” and the facility representative.

11a
Appendix A
Although this court has not previously addressed
this issue in the context of nursing-home residents, our
court of appeals has discussed the third-party-beneficiary
doctrine in cases involving arbitration agreements that
are virtually identical to those at issue here. While we
are not bound by opinions by the court of appeals, we may
treat such decisions as persuasive authority. Independence
Cnty. v. City of Clarksville, 2012 Ark. 17, 386 S.W.3d 395.
In Progressive Eldercare Services - Chicot v. Long,
2014 Ark. App. 661, 4, 449 S.W.3d 324, 327, the court held
that the doctrine did not apply to bind the resident to
arbitration agreements that were signed by the resident’s
“Legal Representative,” who was his wife. The court of
appeals stated that the wife did not have actual or apparent
authority over the resident and that the documents had
clearly been designed to be signed by either the resident
or his representative; thus, there was no valid underlying
agreement between the facility and the resident’s wife. Id.
Similarly, in Broadway Health & Rehab, LLC v. Roberts,
supra, the arbitration agreement provided for signatures
by either the “Resident” or the “Resident Representative.”
Id. at 2, 524 S.W.3d at 409. The resident’s daughter
signed the agreement, noting “Daughter” in the space
provided to indicate her basis for acting as the “Resident
Representative.” Id. at 3, 524 S.W.3d at 409. The court
of appeals held, as it did in Long, that a valid agreement
did not exist because the daughter had not signed in her
individual capacity. Id. at 7, 524 S.W.3d at 412.
The court of appeals subsequently addressed the
situation of a daughter who had signed an arbitration

12a
Appendix A
agreement as the “Responsible Party” for her mother
in Pine Hills Health & Rehab. LLC v. Talley, 2018 Ark.
App. 131, 546 S.W.3d 492. The court again held that the
daughter did not intend to sign the agreement in an
individual capacity and that the third-party-beneficiary
doctrine did not apply to bind her mother to arbitration. Id.
Finally, the court of appeals recently decided
Hickory Heights Health & Rehab, LLC v. Cook, supra,
a case that involved the same pertinent language as in
the third version of Robinson’s arbitration agreements
discussed above. In Cook, the parties to the arbitration
agreement were also listed as the facility and “The
Resident and/or Responsible Party”; the terms “Resident
and/or Responsible Party” were used throughout both
the arbitration and admission agreements to define the
rights and responsibilities of the parties; the definition
of “Responsible Party” was identical to that used in the
arbitration and admission agreements here; and the
same signatures lines and box to be checked if providing
supporting documentation of authority were also present.
Id. at 2-3, 557 S.W.3d at 288-89. The daughter, who did not
have legal authority to do so, signed the agreements on
behalf of her resident mother and noted her relationship
as “daughter” on the space provided on the arbitration
agreement. Id. The court of appeals affirmed the circuit
court’s refusal to compel arbitration, holding that there
was no clear indication in the arbitration agreement
to demonstrate that the daughter was signing in her
individual capacity rather than in her representative
capacity. Id. at 10-11, 557 S.W.3d at 292.

13a
Appendix A
In its briefs, which were filed prior to the opinion in
Cook, Robinson attempts to distinguish the situation in
both Long and Roberts by noting that the term “Resident
and/or Responsible Party” was used to describe the
parties to the agreements in the present case rather than
“Resident Representative” or “Legal Representative.”
Robinson further points to the definition of “Responsible
Party” used in the admission and arbitration agreements
here. Robinson argues that the contractual language in
this case clearly contemplates an individual other than
a resident entering into the agreements in his or her
individual capacity, as opposed to the language used in
cases such as Roberts.
By its argument, Robinson essentially concedes that
the third-party-beneficiary doctrine does not apply to two
of the three versions of its arbitration agreements, both
of which utilize the terms “Resident Representative” or
“Legal Representative.” Furthermore, we agree with
the court of appeals’ analysis in Cook, which held that
the doctrine did not apply to an arbitration agreement
with language identical to that contained in the third
version of Robinson’s agreements. Other than the change
in nomenclature, there is no real distinction between the
different versions of the agreements with regard to the
rights or responsibilities of the “Resident Representative,”
“Legal Representative,” or “Responsible Party.” Although
Robinson points to the provision in the agreements
stating that the “Responsible Party” agrees to assist the
facility in providing for the resident’s health, care, and
maintenance, the agreements do not place any specific
obligations or personal liability upon the “Responsible

14a
Appendix A
Party.” For instance, the “Responsible Party” is obligated
to reimburse the facility for the resident’s costs only if
he or she otherwise has “legal access” to the resident’s
income or resources. We therefore conclude that Robinson
failed to demonstrate that the individuals signing these
arbitrations agreements were acting in an individual
rather than a representative capacity. 3 Because there
was no valid arbitration agreement between Robinson
and these individuals, the circuit court correctly denied
Robinson’s motion to compel arbitration with respect to
these 271 class members.
B. Validity of the A rbitration Agreements
Applicable Only to Disputes Involving an
Amount Greater than $30,000
Phillips next contends that Robinson has failed
to demonstrate the essential contractual element of
mutuality of obligation with respect to the arbitration
agreements that limit arbitration to controversies and
disputes involving an amount greater than $30,000. The
parties agree that 216 of the 544 arbitration agreements
3. Robinson cites two federal district court cases that reach
a different conclusion based on similar contractual language. See
Northport Health Servs. of Ark., LLC v. Cmty. First Tr. Co., No.
2:12-CV-02284, 2014 U.S. Dist. LEXIS 7207, 2014 WL 217893
(W.D. Ark. Jan. 21, 2014); Northport Health Servs. of Ark., LLC
v. Rutherford, No. 07-5184, 2009 U.S. Dist. LEXIS 133073, 2009
WL 10673107 (W.D. Ark. March 17, 2009). However, these decisions
are not binding on this court, Dickinson v. SunTrust Nat’l Mortg.
Inc., 2014 Ark. 513, 451 S.W.3d 576, and as discussed herein, we find
our court of appeals’ opinions on this issue to be more persuasive.

15a
Appendix A
contain this limitation; however, we note that some of
these 216 agreements are already included within the
271 arbitration agreements that were held to be invalid
in our discussion above. The language in the challenged
agreements provides as follows:
It is understood and agreed by Facility and
Resident that any and all claims, disputes, and
controversies arising out of, or in connection
with, or relating in any way to the Admission
Agreement or any service or health care
provided by the Nursing Facility to the
Patient and involving an amount of or greater
than thirty-thousand dollars and no cents
($30,000.00) shall be resolved exclusively by
binding arbitration and not by a lawsuit or
resort to court process. This agreement to
arbitrate includes, but is not limited to, any
claim for payment, nonpayment, or refund
for services rendered to the Resident by
the Nursing Facility, violations of any right
granted to the Resident by law or by the
Admission Agreement, breach of contract,
fraud or misrepresentation, negligence, gross
negligence, malpractice or claims based on any
departure from accepted medical or health care
or safety standards, as well as any and all claims
for equitable relief or claims based on contract,
tort, statute, fact, or inducement, when the
amount in controversy equals or exceeds thirtythousand dollars and no cents ($30,000.00).

16a
Appendix A
The element of mutuality of contract means that an
obligation must rest on each party to do or permit to be
done something in consideration of the act or promise of
the other; that is, neither party is bound unless both are
bound. Henry, supra; The Money Place, LLC v. Barnes,
349 Ark. 411, 78 S.W.3d 714 (2002). We have held that
there is no mutuality of obligation when one party uses an
arbitration agreement to shield itself from litigation, while
reserving to itself the ability to pursue relief through the
court system. Henry, supra; E-Z Cash Advance, Inc. v.
Harris, 347 Ark. 132, 60 S.W.3d 436 (2001). “Thus, under
Arkansas law, mutuality requires that the terms of the
agreement impose real liability upon both parties.” Henry,
2014 Ark. 361, at 7, 444 S.W.3d at 360.
Phillips primarily relies on our decisions in both
Harris and Henry as support for his argument that the
arbitration agreements containing the $30,000 limitation
fail due to a lack of mutuality. In Harris, the arbitration
clause was held to be unenforceable because the clause
allowed the check casher the right to pursue all civil
remedies including a returned-check fee, court costs, and
attorney’s fees when a borrower’s check was returned by
his or her financial institution, while the customer was
limited to arbitration. Although the clause in Harris
allowed both parties access to small-claims court, we
rejected as “disingenuous” E-Z Cash’s argument that this
provision supplied the necessary element of mutuality.
Id. at 141, 60 S.W.3d at 442. We stated that “[t]aking into
account their line of business, it is difficult to imagine what
other causes of action against a borrower remain that E-Z
Cash would be required to submit to arbitration.” Id.

17a
Appendix A
Likewise, in Henry, we concluded that the arbitration
clause lacked mutuality because it reserved to the nursing
home the right to litigate any billing or collection disputes
while requiring arbitration for all other claims. We stated
that the nursing home had “excluded from arbitration the
only likely claim that it might have against a resident” and
that its argument that a private-pay resident might have
a billing claim against it “rings hollow[.]” Henry, 2014
Ark. 361, at 8, 444 S.W.3d at 361. Because the arbitration
clause imposed no real liability on the nursing home to
arbitrate its own claims, we held that no valid arbitration
agreement existed due to a lack of mutuality. Id. at 8-9,
444 S.W.3d at 361.
Phillips argues that the $30,000 limitation in many
of the arbitration agreements in this case reserves
Robinson the right to litigate the only likely claim that
it will ever have against a resident, which is a billing or
collection dispute, while requiring residents to submit
to binding arbitration of their claims, which are likely
to be in tort. Phillips points to certain provisions in the
admissions agreements to show that the maximum debt
that a resident could accumulate before being discharged
is between $6,800 and $7,600, which is well below the
$30,000 arbitration threshold. In response, Robinson
asserts that the cases discussed above are distinguishable
because they specifically exclude a particular category
or type of claim from arbitration instead of imposing a
monetary threshold. Robinson also argues that there
are other possible charges besides the daily room rate
that a resident could incur, such as private nursing or
special equipment, and that it is “certainly conceivable”

18a
Appendix A
that it could have a claim against a resident greater than
$30,000. Further, Robinson contends that the resident
could potentially have a claim against it for property loss
that would not be subject to arbitration.
We do not discern a meaningful distinction between
the arbitration agreements at issue here and the ones in
Harris and Henry with regard to the required element of
mutuality. As in Henry, Robinson’s attempt to demonstrate
mutuality in this case by pointing to certain hypothetical
situations “rings hollow.” Id. at 8, 444 S.W.3d at 361. We
also note that the court of appeals recently decided a case
involving the same $30,000 limitation in a nursing-home
arbitration agreement and held that the agreement was
invalid for lack of mutuality. Hickory Heights Health &
Rehab, LLC v. Adams, 2018 Ark. App. 560, 566 S.W.3d
134. In reaching its decision, the court rejected arguments
by the facility that were virtually identical to those in this
case.4 Id. The court of appeals stated that “the arbitration
provision was obviously drafted to shield Hickory Heights
from defending itself in the court system against the
majority of residents’ potential claims while maintaining
its rights to utilize the court system for its likely claims
against residents.” Id. at 7, 566 S.W.3d at 138.
4. For example, with regard to the facility’s argument about
a potential claim by the resident for loss of property, the court
of appeals noted that the admissions agreement specifically
disclaimed all liability against the facility for loss of personal
property not delivered to an employee for safekeeping and that
the facility further reserved the right to refuse the safekeeping
of personal property over fifty dollars. These same provisions are
contained in Robinson’s admissions agreement.

19a
Appendix A
We agree with the reasoning in Adams and conclude
that the arbitration agreements containing the $30,000
limitation in this case lack mutuality. As in Adams, we
believe that the arbitration agreements here serve to
shield Robinson from defending itself in the court system
against the majority of potential claims by residents, while
reserving its right to utilize the court system for its likely
claims. Accordingly, these arbitration agreements are not
valid or enforceable, and the circuit court correctly denied
the motions to compel as to these agreements. 5
C. 	Invalidity of Additional Arbitration Agreements
Based on Lack of Mutual Agreement or Assent
Phillips also challenges the validity of certain
arbitration agreements based on lack of mutual agreement
or assent. Specifically, he contends that Robinson failed
to authenticate the signatures of the parties to the
arbitration agreements; that Robinson failed to show that
its representatives were authorized to bind the nursing
home to the terms of the agreement; that Robinson failed
to sign some of the arbitration agreements; and that
Robinson has failed to produce a complete copy of each
arbitration agreement.
With regard to the authentication of the signatures
and the authorization of its agents to sign on its behalf,
Robinson correctly asserts that Phillips failed to put forth
5. Our review of the record reveals approximately 109
arbitration agreements that fail on this basis, in addition to the
271 agreements invalidated earlier in this opinion.

20a
Appendix A
any evidence, either before the circuit court or this court,
that any of the signatures on the arbitration agreements
were not genuine or that Robinson’s representatives were
not authorized to sign on its behalf. As Robinson contends,
Arkansas Code Annotated section 16-46-102 (Repl. 1999)
provides that when a writing purporting to have been
executed by one of the parties is referred to in and filed
with a pleading, it may be read as genuine against that
party unless he denies its genuineness by affidavit before
the trial is begun. No such affidavit was filed in this case.
While Phillips cites Arkansas Rule of Evidence 901(a)
as support for his argument, this rule relates only to
authentication as a condition for admissibility in evidence,
and it is not relevant to our consideration in this appeal.
We agree that Robinson’s failure to sign certain
arbitration agreements is fatal to the validity of these
agreements, however. We have held that both parties
must manifest assent to the particular terms of a contract.
Pine Hills Health & Rehab., LLC v. Matthews, 2014 Ark.
109, 431 S.W.3d 910. We employ an objective test for
determining mutual assent—meaning objective indicators
of agreement and not subjective opinions. Id. It is a matter
of basic contract law that, without its signature, Robinson
is unable to demonstrate such mutual assent. See id.
(holding that arbitration agreement was invalid due to lack
of mutual assent where facility’s signatures were missing).
While Robinson argues that it demonstrated its assent by
admitting residents to its facility and providing services,
the arbitration agreement was a separate contract from
the admissions agreement, regardless of whether it was
incorporated into or operated as an addendum to the

21a
Appendix A
admissions agreement. As in Matthews, there are no
other objective indicators of mutual assent here. Thus, we
affirm the circuit court’s denial of the motions to compel
with respect to the arbitration agreements that were not
signed by Robinson.6
Similarly, Phillips’s argument that any incomplete
arbitration agreements are invalid also has merit. Robinson
cannot meet its burden to demonstrate mutual agreement
or assent to the terms of the arbitration agreement if the
complete agreement is not provided. Although Robinson
argues that the incomplete agreements are sufficient
because they are identical to other agreements that are
contained in the record, there are at least three different
versions of the arbitration agreements, as we discussed
earlier. Accordingly, even though the signature pages of
the agreements may have been provided, Robinson cannot
show which version of the agreement the parties signed.
The circuit court therefore correctly denied arbitration
as to any incomplete arbitration agreements.7
In our de novo review, we noted additional deficiencies
that were apparent from either the face of the arbitration
6. Phillips asserts that there are twenty-eight arbitration
agreements that were not signed by Robinson. However, excluding
those already held to be invalid for other reasons discussed herein,
our review reveals approximately thirteen additional arbitration
agreements that contain no signature by Robinson and that are
therefore invalid for lack of mutual assent.
7. Phillips claims that 30 of the 544 arbitration agreements
are incomplete. However, some of these incomplete agreements
may be invalid on other bases already discussed herein.

22a
Appendix A
agreements or the associated documents related to the
essential element of mutual agreement. First, as to
resident Joyce Moring, neither the arbitration agreement
nor the admissions agreement is dated. Because Moring’s
arbitration agreement was signed by a legal guardian who
presented documentation of temporary guardianship over
Moring, there is no proof that her guardian was legally
authorized to sign on her behalf at the time the arbitration
agreement was executed. Thus, this arbitration agreement
is not valid or enforceable.
In addition, resident Ruby McGrew’s arbitration
agreement is not dated. Because her agreement was
signed by an individual with power of attorney (“POA”)
over her, it cannot be determined from the documents
before us whether that individual had the legal authority
to sign the agreement on McGrew’s behalf at that time.
Accordingly, Robinson failed to prove McGrew’s agreement
to arbitrate, and the motion to compel arbitration was
correctly denied as to her.
Finally, the documents that were provided to Robinson
demonstrating the signor’s POA over resident Eldin
Hodges are also ineffective to show Hodges’s agreement
to arbitrate. These POA documents clearly exclude
the authority to assent to arbitration. Thus, Hodges’s
arbitration agreement was invalid, and Robinson’s motion
to compel was correctly denied as to him as well.

23a
Appendix A
D. 	Invalidity of Arbitration Agreements Based on
Incapacity of Residents
Phillips also challenges the validity of the 105
arbitration agreements signed by the residents on another
basis. He contends that Robinson has exclusive access
to the information needed to determine the residents’
competency at the time they signed the arbitration
agreements, but that Robinson has refused to provide
this information. Thus, Phillips argues that Robinson has
failed to demonstrate the essential element of competency.
As Phillips concedes, the law presumes the capacity
to contract, and the burden of establishing incapacity is
on the party challenging the contract. Harris v. Harris,
236 Ark. 676, 370 S.W.2d 121 (1963). Phillips did not file
a response to the motions to compel challenging the
residents’ competency to sign the arbitration agreements;
nor did he object to the circuit court issuing its ruling
before his response time had expired or before discovery
had been completed. Because he failed to raise the issue
of competency below or obtain a ruling, we are unable to
address this issue on appeal. E-Z Cash Advance, supra.
In sum, after reviewing the record before us,
Robinson has failed to meet its burden of proving a valid
and enforceable arbitration agreement with respect to
each of the agreements that contain the deficiencies
previously discussed. Accordingly, the circuit court’s order
denying the motions to compel arbitration are affirmed
as to those agreements.

24a
Appendix A
II. Whether the Claims Asserted Are Within the Scope
of the Arbitration Agreements
Robinson has met its burden to prove the validity of
the remainder of the arbitration agreements not already
discussed. Thus, the next threshold issue that must be
addressed is whether the claims asserted by Phillips
fall within the scope of those remaining arbitration
agreements. Depending on the version of the arbitration
agreement, the language states that it applies broadly to
“any and all claims, disputes, and controversies arising
out of, or in connection with, or relating in any way to
the Admission Agreement or any service or health care
provided” or to “all disputes arising from this or any
future stays in this Facility.” Phillips does not contend
that the claims brought in this class action do not fall
within the scope of these arbitration agreements, and
we conclude that this requirement is satisfied here. We
therefore reverse and remand with respect to those
arbitration agreements not otherwise held to be invalid
by this opinion.
Affirmed in part; reversed and remanded in part.
Special Justice Greg Vardaman joins in this opinion.
Womack, J., concurs in part and dissents in part.
Wood, J., not participating.

25a
Appendix A
APPEAL FROM THE PULASKI COUNTY
CIRCUIT COURT, SIXTH DIVISION
[NO. 60CV-14-4568]
HONORABLE TIMOTHY DAVIS FOX, JUDGE
CONCURRING IN PART; DISSENTING IN PART.
Shawn A. Womack, Justice, Associate Justice.
I agree with the majority that Phillips did not preserve
issues regarding the law of the case doctrine and waiver
arguments. I further agree that Phillips failed to present
evidence regarding the genuineness of signatures of
Robinson’s representatives. Finally, I agree with the
majority that the agreements not signed by Robinson
should be excluded. However, a principal question on this
appeal is whether the nursing home plaintiffs are required
to arbitrate their claims against Robinson Nursing and
Rehabilitation Center under the third-party beneficiary
doctrine. I conclude that the arbitration agreements
signed by “responsible parties” are subject to arbitration,
and I would therefore reverse the circuit court’s decision
in relevant part. I must also dissent from the majority’s
analysis regarding the mutuality of obligations. Because I
believe the $30,000 arbitration threshold does not foreclose
mutuality, I would reverse the circuit court’s decision on
that issue as well.
I.
Robinson contends that because the “responsible
parties” who signed the arbitration agreements were

26a
Appendix A
contracting in their individual capacities, the plaintiffs
are bound by the agreement as third-party beneficiaries
to the contracts. Applying the basic Arkansas contract
principles relied upon in a similar case, Northport Health
Servs. of Ark., LLC v. Rutherford, No. 07-5184, 2009
U.S. Dist. LEXIS 133073, 2009 WL 10673107 (W.D. Ark.
Mar. 17, 2009), I would direct the circuit court to compel
arbitration as to those plaintiffs.1
In Rutherford, an Arkansas federal district court
examined whether an arbitration agreement signed by
a “responsible party” for a nursing home resident bound
the resident to the agreement as a third-party beneficiary.
2009 U.S. Dist. LEXIS 133073, [WL] at *5. Just as the
agreements here, the Rutherford contract defined a
“responsible party” as, in part, a person “who agrees to
assist the [nursing home] in providing for [the resident’s]
health, care and maintenance.” Id. This language indicates
that by voluntarily signing as a “responsible party,” the
individual intends to be bound by the agreement for the
purpose of assisting the nursing home in caring for the
resident. Id. To hold otherwise would render the language
defining a “responsible party” meaningless, which is
contrary to Arkansas contract law. Id. (citing North v.
Philliber, 269 Ark. 403, 602 S.W.2d 643 (1980)).

1. While a federal court decision construing Arkansas law is
not binding on this court, we have long held that “the opinion of
such eminent authority is persuasive.” Baldwin Co. v. Maner, 224
Ark. 348, 349, 273 S.W.2d 28, 30 (1954); see also Roeder v. United
States, 2014 Ark. 156, at 12 n.8, 432 S.W.3d 627, 635 n.8.

27a
Appendix A
Apply ing A rkansas contract law, Ruther ford
determined there was “substantial evidence of a clear
intention to benefit [the] third party” resident. Id. (quoting
Perry v. Baptist Health, 358 Ark. 238, 245, 189 S.W.3d
54, 58 (2004)). This conclusion was further supported by
language in the arbitration agreement that stated, in part,
that execution of the agreement affects the individual
rights of the responsible party. Id. Accordingly, the court
found that the responsible party is bound individually
by the agreement and the resident is a third-party
beneficiary with respect to the contractual obligations.
Id. This reasoning, founded on Arkansas contract law, has
been subsequently applied to uphold similar provisions
in other third-party beneficiary agreements. See, e.g.,
Northport Health Servs. of Ark., LLC v. Cmty. First Tr.
Co., No. 2:12-CV-02284, 2014 U.S. Dist. LEXIS 7207, 2014
WL 217893 (W.D. Ark. Jan. 21, 2014); Northport Health
Servs. of Ark., LLC v. Medlock, No. 2:13-CV-02083 (W.D.
Ark. May 30, 2014).
Because the language analyzed by the Arkansas
federal district court is identical to the language here,
application of those principles leads to the same result:
persons who signed as “responsible parties” individually
contracted with Robinson for the benefit of the residents
and the residents are contractually bound as third-party
beneficiaries. Moreover, there can be no question that
Robinson and the “responsible parties” contracted to
benefit the residents. Indeed, the residents’ care was the
animating purpose behind each agreement. The conclusion
that the residents were third-party beneficiaries is easily
reached.

28a
Appendix A
In a footnote, the majority casually dismisses the
federal court’s interpretation sans analysis in favor of
the court of appeals’ approach. See Hickory Heights
Health and Rehab, LLC v. Cook, 2018 Ark. App. 409, 557
S.W.3d 286. But that approach disregards our obligation
to consider the sense and meaning of the words within
the contract as they are taken and understood in their
plain and ordinary meaning. See First Nat’l Bank of
Crossett v. Griffin, 310 Ark. 164, 169-70, 832 S.W.2d 816,
819 (1992). It likewise disregards our responsibility to
view the agreement as a whole and recognize that every
word must be taken to have been used for a purpose. Id.
(internal quotation omitted). In the event of ambiguity,
we must reject any construction which neutralizes any
provision if the contract can be construed to give effect
to all provisions. Id.
The majority’s adoption of the court of appeals’
third-party beneficiary analysis conflicts with these wellestablished rules of contract interpretation. The majority
contends that “[o]ther than the change in nomenclature,
there is no real distinction” between agreements
signed by “responsible parties,” and those signed by
“resident representatives” and “legal representatives.”
By minimizing the distinction between these terms, the
majority ignores the terms’ plain meaning. Moreover,
the definition of “responsible party” includes a legal
guardian, someone with power of attorney, “or some
other individual or family member who agrees to assist
[Robinson] in providing for [the resident’s] health, care and
maintenance.” (emphasis added). To proclaim otherwise
renders meaningless the language defining “responsible
party.”

29a
Appendix A
The Rutherford court’s interpretation of the thirdparty beneficiary doctrine in this context is the most
faithful application of Arkansas contract law. Accordingly,
I would direct the circuit court to compel arbitration of
the residents’ claims whose arbitration agreements were
signed by “responsible parties.”
II.
Turning to the issue of mutuality, Robinson contends
there is a mutuality of obligations between the parties
because the agreement does not specifically exclude any
specific category of claims from arbitration. Rather, it
imposes a monetary threshold requiring arbitration of
all claims exceeding $30,000. Except for the monetary
threshold, no other limitations exist as to the types of
claims covered by the arbitration agreement. Accordingly,
I believe the arbitration agreements satisfy the mutuality
requirement.
We have held that a contract must impose mutual
obligations on both parties to be enforceable. See
Showmethemoney Check Cashers, Inc. v. Williams, 342
Ark. 112, 119-20, 27 S.W.3d 361, 366 (2000). If a promise
made by either party does not by its terms fix a real
liability upon one party, then such promise does not
form consideration for the promise of the other party. Id.
Accordingly, a contract which leaves it entirely optional
with one party as to whether they will perform their
promise is not enforceable. Id. In the context of arbitration,
we have recognized that there is no mutuality of obligation
where one party uses an arbitration agreement to shield
itself from litigation, while reserving to itself the ability to

30a
Appendix A
pursue relief through the court system. Id.; see also E-Z
Cash Advance, Inc. v. Harris, 347 Ark. 132, 60 S.W.3d
436 (2001).
The majority contends that the $30,000 threshold in
the arbitration agreements precludes mutuality because
the limitation shields Robinson from defending itself in
court against most potential claims by residents, while
reserving its right to utilize the courts for its claims
against residents. But this conclusion turns on speculation
about what types of hypothetical claims each party may
potentially have against each other and the respective
value of those claims. Except for a sole court of appeals’
opinion—which is not controlling on this court—the
majority cites only to cases where the arbitration
agreement expressly excludes specific categories from
arbitration. See, e.g., Harris, 347 Ark. 132, 60 S.W.3d
436; The Money Place, LLC v. Barnes, 349 Ark. 411, 78
S.W.3d 714 (2002). That is not the case here, where the
only limitation is a monetary threshold.
I am not convinced that there is a lack of mutuality in
the arbitration agreements. It is certainly plausible that
the residents could have a claim against Robinson that
would compel arbitration. Indeed, the agreement is very
broad in its coverage of claims. Apart from the $30,000
threshold, no limitations exist as to the types of claims
that are covered. I therefore conclude that the arbitration
agreements satisfy the mutuality requirement and would
hold that the agreements are enforceable in relevant part.
Accordingly, I respectfully concur in part and dissent
in part.

31a
B the CIRCUIT
Appendix B —Appendix
ORDER of
COURT OF PULASKI COUNTY, ARKANSAS
SIXTH DIVISION, DATED OCTOBER 19, 2017
IN THE CIRCUIT COURT OF PULASKI COUNTY,
ARKANSAS SIXTH DIVISION
CASE NO. 60CV-14-4568
ANDREW PHILLIPS, AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF
DOROTHY PHILLIPS, AND ON BEHALF OF
THE WRONGFUL DEATH BENEFICIARIES
OF DOROTHY PHILLIPS; AND ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY
SITUATED,
Plaintiffs,
VS.
ROBINSON NURSING AND REHABILITATION
CENTER, LLC D/B/A ROBINSON NURSING
AND REHABILITATION CENTER; CENTRAL
ARKANSAS NURSING CENTERS, INC.; NURSING
CONSULTANTS, INC.; AND MICHAEL MORTON,
Defendants.
ORDER DENYING DEFENDANTS’ MOTIONS
TO ENFORCE ARBITRATION AGREEMENTS
AND TO COMPEL CLASS MEMBERS WITH
ARBITRATION AGREEMENTS TO SUBMIT
THEIR CLAIMS TO BINDING ARBITRATION

32a
Appendix B
On this 22nd day of September 2017, Defendants’
Motion to Enforce Arbitration Agreements Signed by
Residents and to Compel Class Members with Arbitration
Agreements to Submit their Claims to Binding Arbitration
filed September 1, 2017; Defendants’ Motion to Enforce
Arbitration Agreements Signed by Guardians and to
Compel Class Members with Arbitration Agreements to
Submit their Claims to Binding Arbitration filed September
1, 2017; Defendants’ Motion to Enforce Arbitration
Agreements Signed by Powers of Attorney and to Compel
Class Members with Arbitration Agreements to Submit
their Claims to Binding Arbitration filed September 1,
2017; and Defendants’ Motion to Enforce Arbitration
Agreements Signed by Responsible Parties and to Compel
Class Members with Arbitration Agreements to Submit
their Claims to Binding Arbitration filed September
5,2017, came on for consideration.
The Court finds that Defendants’ Motions should be
and hereby are denied.
IT IS SO ORDERED.
/s/				
The Honorable Timothy Fox
Circuit Judge
10/19/17			
Date

33a
Appendix COF TRANSCRIPT
Appendix C — EXCERPT
of the CIRCUIT COURT OF PULASKI
COUNTY, ARKANSAS SIXTH DIVISION,
DATED SEPTEMBER 22, 2017
[1]IN THE CIRCUIT COURT OF PULASKI
COUNTY, ARKANSAS SIXTH DIVISION
No. 60CV-14-4568
ANDREW PHILLIPS, as Personal
Representative of the Estate of
Dorothy Phillips, and on Behalf of
the Wrongful Death Beneficiaries
of Dorothy Phillips; and on Behalf of
Themselves and All Others Similarly
Situated,
Plaintiffs,
vs.
ROBINSON NURSING AND REHABILITATION
CENTER, LLC d/b/a ROBINSON NURSING
AND REHABILITATION CENTER; CENTRAL
ARKANSAS NURSING CENTERS, INC.; NURSING
CONSULTANTS, INC.; and MICHAEL MORTON,
Defendants.
CAPTION
BE IT KNOWN that on the 22nd day of September,
2017, this cause came on for hearing before the Honorable

34a
Appendix C
Timothy Davis Fox, Circuit Judge of the Sixth Division
Circuit Court, Sixth Judi­cial District, Pulaski County,
Arkansas.
***
[7]THE COURT: All right. I realize that they are not
technically ripe, but it may be a while before you all get
back in here, and I have completely reviewed everything
that has been submitted so far.
There were four motions that were filed to stay ‑‑ to
enforce the arbitration agreements and to either stay or
dismiss -- or I guess it was to kick these folks out of class
membership, is that correct, Mr. Hatfield?
MR. HATFIELD: Well, I think it’s our position that
they -- if you have an enforceable arbitration agreement,
you can only proceed if you –
THE COURT: Right. So, that you cannot be -- that
you’d be excluded from the class then?
[8]MR. HATFIELD: Yes. And it’s our position that
they shouldn’t even get notice.
THE COURT: And it really raises an interesting
issue, I think, in that -- I did go back through the entire
file I believe, or at least most of it.
And although the arbitration agreements were
mentioned from day one, and they have been pled by the

35a
Appendix C
defen­dants from their original response -- you know, up
until a few years ago, the case law was perfectly clear on
class certifications, that the trial courts were not to do
anything, I mean, anything that even remotely seemed
to address the merits of a cause of action.
You know, if you could -- if it met the Rule 23
requirements, and you could get the notice out, then that
was the obligation of the trial court.
And I forget which case it was -- you guys probably
know off the top of your heads. A few years ago, our
Supreme Court kind of said -- they backed up just a little
on that one and said, “You know, if it’s pretty clear at
the outset on a 12(b)(6) that there’s not even a cause of
action, then perhaps we don’t -- perhaps we don’t see that
as addressing the merits; we see that as you can have a
-- you can have a class action because there’s not a cause
of action.”
[9]I guess a good example would be if somebody just
invented a cause of action that didn’t exist, right? But
that’s as far as it ever went. And I don’t think we have
any case law out of our state.
It seems to me that arbitration agreements -- well,
at least in situations where folks acknowledge that
arbitration agreements were signed, not the legal effect of
them, but that they exist, it would seem to me that those
fall within the threshold.

36a
Appendix C
And I would have thought that that was something
-- this whole excluding these folks when some side gets
to take an interlocutory appeal on the class certification
or the denial of a class certification, if these folks at the
threshold can’t be a member of the class because of that,
it would seem to me that that is a legitimate inquiry that I
would encourage the Court, if it sees this thing on appeal,
this record on appeal, to think about why address that
two different times if it really is as threshold an inquiry
as a 12(b)(6).
And so, then the class definition -- so, for instance,
they reviewed the certification that the court made, and
they affirmed it all except they kicked out the negligence.
Okay? If these folks are truly not members of the class, if
they’re not any [10]different than say folks who are outside
of any possible statute of limitations, why couldn’t that be
done then as well with that? Because it still doesn’t get to
the merits of the cause of action.
But it assists the parties and the purposes of judicial
efficiency to go ahead and get that done one time with an
average appeal taking a year and a quarter, year and a half
probably, between getting the transcript prepared. Okay.
Well, off of my sugges­tion box and back to where we are.
I am going to rule -- and just -- I’m going to make
it -- they were all filed on September 1st, there’s four of
them; but, Mr. Hatfield, you all may want to prepare a
separate order on this.

37a
Appendix C
The Motion to Enforce Arbitration Agreements signed
by folks having durable power of attorneys involving 158
residents, dated September 1st, 2017, is denied.
The Motion to Enforce Arbitration Agreements signed
by guardians involving nine residents, filed on September
1st, 2017, is denied.
The Motion to Enforce Arbitration Agreement signed
by 105 of the residents themselves, and that motion was
filed on September 1st of 2017, is denied.
And the kind of catchall Motion to Enforce [11]
Arbitration Agreement that was signed by persons other
than those that were in the other three motions, and it
involves 271 residents, that was also filed on September
1st, is denied.
****

38a
Appendixof
D rehearing of
Appendix D — denial
the ARKANSAS SUPREME COURT, DATED
DECEMBER 19, 2019
OFFICE OF THE CLERK
ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AR 72201
DECEMBER 19, 2019
RE: SUPREME COURT CASE NO. CV-18-45
ROBINSON NURSING AND REHABILITATION
CENTER, LLC, D/B/A ROBINSON NURSING
AND REHABILITATION CENTER; CENTRAL
ARKANSAS NURSING CENTERS, INC.; NURSING
CONSULTANTS, INC.; AND MICHAEL MORTON,
V.
ANDREW PHILLIPS, AS PERSONAL
REPRESENTATIVE OF THE, ESTATE OF
DOROTHY PHILLIPS, AND ON BEHALF OF
THE WRONGFUL DEATH BENEFICIARIES
OF DOROTHY PHILLIPS AND ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY
SITUATED
THE ARKANSAS SUPREME COURT ISSUED
THE FOLLOWING ORDER TODAY IN THE ABOVE
STYLED CASE:

39a
Appendix D
“APPELLANTS’ PETITION FOR REHEARING
IS DENIED. SPECIAL JUSTICE GREG VARDAMAN
AGREES. WOMACK, J., WOULD GRANT. WOOD, J.,
NOT PARTICIPATING.”
SINCERELY,
/s/				
STACEY PECTOL CLERK

